A PP e^n A; x
;

A\

(

IN THE COURT OF APPEALS OF THE STATE OF OREGON
HAMID MICHAEL HEJAZI,
Plaintiff-Appellant,

v.
CITY OF EUGENE POLICE DEPARTMENT, CITY OF EUGENE, LANE COUNTY, ar d
STATE OF OREGON,
Defendants.
Lane County Circuit Court No. 20AD005
Court of Appeals No. A174856
ORDER OF DISMISSAL
On October 25, 2020, appellant filed a notice of appeal from an order denying a
motion to waive filing fees, signed on September 25, 2020. A notice of appeal must be
filed and served within 30 days of the date the order or judgment on appeal is entered in
the register. Under ORS 19.270(2), timely service of the notice of appeal on all parties
identified in the notice of appeal as adverse parties is jurisdictional and may not be
waived or extended. As appellant acknowledges, the notice of appeal has not been
served on the respondents identified in the notice of appeal. Any attempt at serving ,
respondents now would be well past the 30 days after entry of judgment.
Therefore, on that ground, the court on its own motion dismisses the appeal.
Appeal dismissed.
THERESA M. KIDD
APPELLATE COMMISSIONER
2/2/2021 10:29 AM

DESIGNATION OF PREVAILING PARTY AND AWARD OF COSTS
Prevailing party:
Costs: No costs allowed

c: Hamid Michael Hejazi
Stephen E Dingle
Benjamin Gutman
City of Eugene
Lane County
ej

ORDER OF DISMISSAL
REPLIES SHOULD BE DIRECTED TO: State Court Administrator, Records Section,
Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 1 of 1

f

A
5

i >

P vyr^\ X

£>

IN THE SUPREME COURT OF THE STATE OF OREGON
HAMID MICHAEL HEJA2I
Plaintiff-Appellant,
Petitioner on Review,
v.
CITY OF EUGENE POLICE DEPARTMENT, CITY OF EUGENE, LANE COUNTY, and
STATE OF OREGON,
Defendants,
Respondents on Review.
Court of Appeals
A174856
S068459
ORDER DENYING REVIEW
Upon consideration by the court.
The court has considered the petition for review and orders that it be denied.

Martha l Walters
CHIEF JUSTICE, SUPREME COURT
S/20/2021 11:04 AM

c: Stephen E Dingle
Benjamin Gutman
wWamid Michael Hejazi
City of Eugene
Lane County
jr

ORDER DENYING REVIEW
REPLIES SHOULD BE DIRECTED TO: State Court Administrator, Records Section
Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 1 of 1

